HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation Blue Cross and Blue Shield of Florida, (A-07-94-01107)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Blue Cross and
Blue Shield of Florida," (A-07-94-01107)
December 7, 1995
Complete Text of Report is available in PDF format
(172 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation Blue Cross and Blue Shield of Florida (Florida). Our review
showed that Florida understated medicare segment pension assets as of January
1, 1990 by $432,579. The understatement occurred because Florida did not fully
implement the recommendations of our prior segmentation audit report. Florida's
update of the Medicare segment assets from Plan Year 1990 to Plan Year 1994
understated segment assets by an additional $380,543. The understatement occurred
primarily because Florida used incorrect participant data in their update of
pension assets. We recommended that Florida increase the January 1, 1994 assets
of the Medicare segment by $813,122 ($432,579 plus $380,543). Florida agreed
with the recommendation.